No. 20-_____
IN THE SUPREME COURT OF THE UNITED STATES
Darrin B. Woodard
Petitioner,
v.
United States of America,
Respondent
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Darrin B. Woodard respectfully requests that this Court grant him
leave to proceed in forma pauperis. In support of this request, Petitioner states that
undersigned counsel was appointed pursuant to the Criminal Justice Act, 18 U.S.C.
ยง 3599(a)(2), by the United States Court of Appeals for the Tenth Circuit, and that
Petitioner is unable to retain counsel and pay the costs attendant to proceeding before
this Honorable Court.
Respectfully submitted,
VIRGINIA L. GRADY
Federal Public Defender
/s Shira Kieval
Shira Kieval
Assistant Federal Public Defender
Counsel of Record for Petitioner
633 17th Street, Suite 1000
Denver, Colorado 80202
(303) 294-7002

